                              Closeout for M98030008

   On March 3, 1998, OIG received a letter from the Director of the Institute1
regarding a "preliminary inquiry" conducted by the subject's department: The
subject2 was alleged to have listed manuscripts a s "submitted when either they had
not been submitted, or did not exist. NSF was informed because three of these
suspect manuscripts were cited in a proposal the subject submitted to NSF.3 The
subject admitted that these listings were erroneous, and said that he listed those
manuscripts a s submitted because he wanted to "force himself to write these papers
by the end of the month in question."
    During the inquiry, the subject told the Committee that he had not intended to
mislead anyone. The subject had previously spoken with his department
Chairperson and another faculty member about his citations and the status of the
manuscripts cited. He apparently misinterpreted their comments to mean that his
listings were okay. The Committee concluded his listings were "evidence of a
careless attitude and poor judgement," but there was not "a deliberate attempt to
deceive." The Director concluded that the incorrect listings did not rise to the level
of misconduct, but wrote the subject a letter of reprimand and placed a copy in the
subject's faculty file. The subject signed a statement that the listings were
erroneous and acknowledged receipt of the letter of reprimand.
    The subject's previous NSF proposals4 did not contain any references to
"submitted manuscripts, so there is no evidence of a pattern in proposals submitted
to NSF. The subject did not claim that the papers had been through a review
process or accepted, merely that they had been submitted. Typically, the
submission of a manuscript to a journal indicates that the work is substantially
complete. The manuscripts cited by the subject a s "submitted represented work
that was substantially complete, although they had not been submitted. This claim
carries less weight than claims that the manuscript has been accepted, is in press,
or has been published. However, "NSF expects strict adherence to the rules of
proper scholarship and attribution. The responsibility for proper attribution and
citation rests with the authors of a research proposal; all parts of the proposal
should be prepared with equal care for this concern. Serious failure to adhere to
such standards can result in findings of misconduct in science."5 In closing this
case, OIG reminded the subject of his responsibility to ensure that his proposals
meet NSF expectations for accuracy and proper scholarship.



   1 (footnote   redacted).
   2 (footnote   redacted).
   3 (footnote   redacted).
   4 (footnote   redacted).
   5 (footnote   redacted).


                                      Page 1 of 2
                               Closeout for M98030008



    Because there was no evidence of a pattern and the subject's misrepresentation
of his publication record was not serious, we agreed with his departmental
Committee's conclusion that his actions did not rise to the level of misconduct. This
inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                     Page 2 of 2
